No. 20-437
IN THE

Supreme Court of the United States
____________________
UNITED STATES OF AMERICA,
Petitioner,
v.

REFUGIO PALOMAR-SANTIAGO,
Respondent.
____________________
On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
MOTION FOR LEAVE TO FILE SUPPLEMENTAL BRIEF AFTER ORAL ARGUMENT,
AND SUPPLEMENTAL BRIEF
____________________
Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal
Public Defenders
OFFICE OF FEDERAL PUBLIC
DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, NV 89101
(702) 388-6577

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
Bradley N. Garcia
Counsel of Record
Anna O. Mohan
Grace E. Leeper
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5504
bgarcia@omm.com

MOTION FOR LEAVE TO FILE SUPPLEMENTAL BRIEF AFTER ORAL ARGUMENT
Pursuant to this Court’s Rules 25.6 and 25.7, respondent respectfully seeks leave to file a post-argument brief in this case addressing one specific issue.
In its reply brief, the Government suggested for the
first time in this litigation that respondent could have
avoided prosecution under 8 U.S.C. § 1326 if, after
this Court held in Leocal v. Ashcroft, 543 U.S. 1
(2004), that the crime for which he was deported was
not a deportable offense, he had filed a “motion to reopen” his removal order. See Reply Br. 16. At oral
argument, the Government advanced that claim in
stronger terms, asserting that “Respondent plainly
could have sought” a motion to reopen after Leocal
was decided. Tr. 14:24. Such a motion, the Government maintained, “would allow him if successful to
avoid the 1326 charge all together.” Id. 15:21-23.
Several Justices asked questions or otherwise suggested that these representations may be important
to their analyses of the parties’ respective positions,
while Justice Sotomayor explicitly questioned
whether the Court had sufficient briefing to evaluate
or rely on the Government’s representations.
Because respondent had no opportunity in the
briefing process to address the subject of motions to
reopen and only a very limited chance during oral argument to do so, he respectfully moves to address the
issue here with a short argument and supporting citations. For the reasons explained in the attached
supplemental brief, the Government’s representations are incorrect. Respondent could not have successfully pursued a motion to reopen after this Court
decided Leocal.

Respectfully submitted,
Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal
Public Defenders
OFFICE OF FEDERAL PUBLIC
DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, NV 89101
(702) 388-6577

April 29, 2021

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
Bradley N. Garcia
Counsel of Record
Anna O. Mohan
Grace E. Leeper
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5504
bgarcia@omm.com

1
SUPPLEMENTAL BRIEF OF RESPONDENT
Neither the Government’s petition for a writ of certiorari or its opening brief referred to a motion to reopen as a remedy available to respondent. In its reply
brief, the Government mentioned the potential relevance of a motion to reopen only once, in the context
of addressing the constitutional issue, see Reply Br.
15-16, and did not suggest a motion to reopen was an
“available” remedy in the sense contemplated by Section 1326(d), see id. at 2-14. Yet the Government suggested at oral argument that “Respondent plainly
could have sought” a motion to reopen after this
Court’s decision in Leocal v. Ashcroft, 543 U.S. 1
(2004). Tr. 14:24. That suggestion is incorrect and
should play no role in the Court’s analysis of this case.
When this Court decided Leocal, there was no way
respondent could have successfully pursued a motion
to reopen. Respondent was deported in 1998, the day
after his removal order issued, and six years before
Leocal. Resp. Br. 6. Once outside of the United
States, a Board of Immigration Appeals (“BIA”) regulation known as the “departure bar” prohibited him
from filing a motion to reopen. That regulation provided that “[a] motion to reopen or a motion to reconsider shall not be made by or on behalf of a person who
is the subject of exclusion, deportation, or removal
proceedings subsequent to his or her departure from
the United States.”
8 C.F.R. §§ 1003.2(d),
1003.23(b)(1); see also Matter of Armendarez-Mendez,
24 I&N Dec. 646 (BIA 2008).
In 2011, seven years after Leocal, the Ninth Circuit held—over the Government’s contrary argument—that the departure bar cannot preclude a

2
noncitizen from exercising a statutory right to file a
motion to reopen. See Reyes-Torres v. Holder, 645
F.3d 1073, 1075-77 (9th Cir. 2011) (expanding on Coyt
v. Holder, 593 F.3d 902, 903 (9th Cir. 2010)). But the
Government did not state in its briefs or at oral argument that it believes this holding is correct. At any
rate, the governing statute would have deemed any
motion to reopen filed in 2011 long-since time-barred.
See 8 U.S.C. § 1229a(c)(7)(C)(i) (“[T]he motion to reopen shall be filed within 90 days of the date of entry
of a final administrative order of removal.”). The Government suggested at oral argument that perhaps respondent could have asked for equitable tolling. Tr.
14:1-4. But as this Court has explained, equitable
tolling “is a rare remedy to be applied in unusual circumstances, not a cure-all for an entirely common
state of affairs,” Wallace v. Kato, 549 U.S. 384, 396
(2007), and we are aware of no comparable case in
which the Government has ever agreed that equitable
tolling should be granted. Cf. In Re: Samath Doung,
No. AXXX-XX9-112-ELO, 2018 WL 4611461, at *1
(DCBABR Aug. 15, 2018) (“Neither the statute nor
the regulations permit equitable tolling of the time
limitations for filing a motion to reopen due to a
change in law.”). Indeed, the Government is presenting oral argument before the Fifth Circuit today defending a BIA decision that denied equitable tolling
for a promptly filed motion to reopen following a decision of this Court. See Gonzalez Hernandez v. Garland, No. 19-60274 (5th Cir. April 24, 2019).
Even if it were accurate, the Government’s suggestion that a successful motion to reopen would have allowed respondent to avoid prosecution under Section

3
1326 would still run headlong into the Government’s
own reading of Section 1326. According to the Government, a noncitizen must always satisfy the three
prongs of Section 1326(d) to avoid a Section 1326 prosecution if he was previously removed—even where, as
here, his underlying removal order is indisputably invalid. If that is so, then prevailing on a motion to reopen would be of no consequence. A noncitizen such
as respondent who successfully reopens his removal
proceedings has seemingly not, under the Government’s reading of the statute, exhausted his administrative remedies (since he still waived his original
right to judicial review), see 8 U.S.C. § 1326(d)(1), and
he certainly has not been “improperly deprived … of
the opportunity for judicial review,” id. § 1326(d)(2). *
In short, the only way a successful motion to reopen could provide a defense to a Section 1326 prosecution is if the undisputed invalidity of a removal order—for reasons independent of the three prongs of
Section 1326(d)—precludes such a prosecution. For
all of the reasons respondent explained in his brief
and at oral argument, such is precisely the case here,
as well.
* The Government also suggested at oral argument that “the
1326 charge doesn’t lie if an individual seeks and obtains the Attorney General’s permission to reapply for admission.” Tr. 15:24. But that avenue does not constitute an “administrative
remed[y] … to seek relief against the [removal] order,” and thus
would not satisfy 8 U.S.C. § 1326(d)(1) either. Put differently,
even if Mr. Palomar-Santiago had obtained permission to reapply for admission (a highly unlikely outcome), that process would
not have had any bearing on the validity of his underlying removal order.

4
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal
Public Defenders
OFFICE OF FEDERAL PUBLIC
DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, NV 89101
(702) 388-6577

April 29, 2021

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
Bradley N. Garcia
Counsel of Record
Anna O. Mohan
Grace E. Leeper
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5504
bgarcia@omm.com

